DISCUSSION                                          WAGE AND HOUR
    DRAFT                                           DIVISION


      Office of Inspector General—Office of Audit




                                                    RECOVERY ACT: ENFORCEMENT OF DAVIS-
                                                    BACON ACT PREVAILING WAGE RATE
                                                    DETERMINATIONS


                                                    This audit was performed by Foxx & Company, under contract to the U.S.
                                                    Department of Labor, Office of Inspector General, and by acceptance, it
                                                    becomes a report of the Office of Inspector General.




                                                                         Assistant Inspector General for Audit
                                                                              U.S. Department of Labor




                                                                                      Date Issued:                 March 31, 2011
                                                                                   Report Number:                18-11-009-04-420
U.S. Department of Labor                                    March 2011
Office of Inspector General
Office of Audit                                             Recovery Act: Enforcement of Davis-Bacon Act
                                                            Prevailing Wage Rate Determinations

BRIEFLY…
Highlights of Report Number: 18-11-009-04-420, to the
Acting Administrator, Wage and Hour Division                WHAT OIG FOUND
                                                            WHD provided adequate assistance and outreach to
WHY READ THE REPORT                                         contractors and other interested parties to ensure that
President Obama signed the American Recovery and            they were aware of DBA requirements for Recovery
Reinvestment Act (Recovery Act) into law on                 Act-funded projects. In addition, WHD enhanced its
February 17, 2009. The Recovery Act appropriated            enforcement program to conduct more investigations of
$787 billion dollars to preserve and create jobs,           DBA violations. The investigations were more effective
promote the nation’s economic recovery, and assist          in identifying violations and were completed in a more
those most impacted by the recession. The Recovery          timely manner than non-Recovery Act investigations.
Act funded construction, renovation of federal buildings,   WHD also conducted wage determination surveys for
and a range of infrastructure projects, such as roads,      Department of Energy’s weatherization program, which
bridges, public transit, water systems, and housing.        came under the DBA requirements because of
The Act covered projects funded directly, by or in part,    Recovery Act funding. The wage determination surveys
through several federal agencies.                           were timely and reliable.

The Department of Labor (DOL) received $80 million for
various Recovery Act-related oversight activities.
                                                            WHAT OIG RECOMMENDED
Funds designated for these purposes could be
                                                            Because WHD provided adequate outreach,
obligated through September 30, 2010. The DOL Wage
                                                            implemented an improved prevailing wage
and Hour Division (WHD) obligated $11.5 million to
                                                            investigations process, and issued timely prevailing
carry out Recovery Act work for Davis-Bacon Act (DBA)
                                                            wage determinations, this report does not include
wage determinations and enforcement. WHD used the
                                                            recommendations to DOL.
funds to conduct activities in three areas: outreach,
prevailing wage enforcement, and prevailing wage
                                                            The auditors met with WHD personnel to discuss the
determinations. This report presents the results of how
                                                            results of the audit and subsequently provided the
efficiently and effectively WHD used the Recovery Act
                                                            Agency with a draft report for review and possible
funds to conduct its oversight of DBA requirements for
                                                            comment. After reviewing the draft report, WHD
Recovery Act-funded construction projects.
                                                            management notified the OIG through an email that
                                                            they agreed with the report and did not plan to send a
WHY OIG CONDUCTED THE AUDIT                                 formal response to the report.
This audit was conducted to answer the following
questions:
    1. Did WHD provide adequate compliance
        assistance and outreach to ensure Recovery
        Act contractors and subcontractors complied
        with DBA?
    2. Did WHD conduct timely prevailing wage
        complaint and directed investigations in
        accordance with applicable policies and
        regulations?
    3. Did WHD issue timely and reliable prevailing
        wage determinations in response to the
        Recovery Act in accordance with applicable
        policies and regulations?


READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:
http:www.oig.dol.gov/public/reports/oa/2011/18-11-009-
04-420.pdf.
                                    Prepared by Foxx & Company
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                RA: Davis-Bacon Act Enforcement
                                    Report No. 18-11-009-04-420
                                                                            Prepared by Foxx & Company
                                            For the U. S. Department of Labor – Office of Inspector General



Table of Contents

Independent Auditor’s Report...................................................................................... 1

Results ........................................................................................................................... 3

Objective 1 — Did WHD provide adequate compliance assistance and outreach to
              ensure Recovery Act contractors and subcontractors complied
              with the DBA?....................................................................................... 3
          Wage and Hour Division outreach efforts were extensive and effective ............... 3

Objective 2 — Did WHD conduct timely prevailing wage complaint and directed
              investigations in accordance with applicable policies and
              regulations?.......................................................................................... 4
          WHD used Recovery Act funds to shift the overall focus of DBA
          investigations, and their initiatives have resulted in lasting improvements
          to the investigation program ................................................................................. 4

Objective 3 — Did WHD issue timely and reliable prevailing wage determinations
              in response to the Recovery Act in acccordance with applicable
              policies and regulations? .................................................................... 6
          WHD conducted timely surveys and established reliable prevailing wage
          determinations required by the Recovery Act for weatherization projects ............ 6

Appendices
          Appendix A Background ..................................................................................... 11
          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 13
          Appendix C Acronyms and Abbreviations .......................................................... 15




                                                                                     RA: Davis-Bacon Act Enforcement
                                                                                         Report No. 18-11-009-04-420
                                    Prepared by Foxx & Company
   For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                RA: Davis-Bacon Act Enforcement
                                    Report No. 18-11-009-04-420
                                                                  Prepared by Foxx & Company
                                  For the U. S. Department of Labor – Office of Inspector General




                                Independent Auditor’s Report

March 31, 2011

Nancy Leppink
Acting Administrator, Wage and Hour Division
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

President Obama signed the American Recovery and Reinvestment Act (Recovery Act)
into law on February 17, 2009. 1 The Recovery Act appropriated $787 billion dollars to
preserve and create jobs, promote the nation’s economic recovery, and assist those
most impacted by the recession. The Recovery Act funded construction, renovation of
federal buildings, and a range of infrastructure projects, such as roads, bridges, public
transit, water systems, and housing. The Act covered projects funded directly, by or in
part, through several federal agencies.

The Davis-Bacon Act (DBA) requires contractors pay their laborers and mechanics no
less than the prevailing wages for corresponding work on similar projects in the area.
The Recovery Act requires that all projects receiving funds must comply with the DBA
prevailing wage rates. As a result, an additional 40 federally assisted construction
programs spread across 12 federal agencies were to comply with the DBA. 2 DOL’s
Wage and Hour Division (WHD) obligated $11.5 million for Recovery Act related wage
determinations and DBA enforcement. WHD expended funds in fiscal years 2009 and
2010, to conduct activities in three areas: outreach, prevailing wage enforcement, and
wage determinations. Additional background on the Recovery Act and WHD’s
responsibilities is included in Appendix A.

Our audit objectives were to determine whether WHD (1) provided adequate
compliance assistance/outreach to ensure Recovery Act contractors and subcontractors
complied with DBA; (2) conducted timely prevailing wage complaint and directed
investigations in accordance with applicable policies and regulations; and (3) issued
timely and reliable prevailing wage determinations in response to the Recovery Act in
accordance with applicable policies and regulations. We reviewed documents and


1
 American Recovery and Reinvestment Act of 2009, (P.L.111-5), February 17, 2009
2
 U.S. Government Accountability Office (GAO) Report; Recovery Act: Officials Views Vary on Impacts of
Davis-Bacon Act Prevailing Wage Provision, GAO-10-421, (Washington D.C: February 24, 2010), Page 7


                                                                 RA: Davis-Bacon Act Enforcement
                                            1                        Report No. 18-11-009-04-420
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General

interviewed WHD officials in Washington, D.C., and at the WHD regional and district
offices in Dallas, TX; Chicago, IL; and Philadelphia, PA.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology and criteria are further discussed
in Appendix B.

RESULTS IN BRIEF

WHD used Recovery Act funds to achieve positive results. WHD provided adequate
assistance and outreach to contractors, subcontractors, and other interested parties
such as labor unions: federal, state, and local agencies; community action
organizations; and employees. WHD conducted conferences, seminars, stakeholder
meetings and various other activities to ensure that all parties involved in the Recovery
Act-funded projects were aware of DBA requirements. WHD also issued guidance and
advisory letters and enhanced its website to disseminate information on Recovery Act
requirements.

We determined that WHD used Recovery Act funds in accordance with policies and
regulations and implemented an improved process for conducting directed and
complaint investigations that could have a lasting impact on future DBA investigations.
Directed investigations were initiated by WHD based on risk assessment of contractor
non-compliance with DBA provisions.

WHD placed a higher priority on DBA prevailing wage rate compliant investigations
under the Recovery Act. In fiscal year 2010, the Recovery Act complaint investigations
took an average of 157 days to complete compared to 342 days for DBA investigations
not funded by the Recovery Act.

WHD issued timely prevailing wage determinations for workers covered under
Department of Energy’s (DOE) Weatherization program. Prevailing wage rates already
existed for all other types of work for programs funded by the Recovery Act. Prevailing
wage rates were needed for Weatherization workers because contractor employees
doing home weatherization were low-skilled workers and the existing residential wage
rates were for skilled workers. In June 2009, Energy and DOL agreed that new wage
rate surveys were needed. WHD conducted the weatherization surveys in all states
during July and August, and published the new rates in September 2009.

We determined WHD provided adequate outreach, implemented an improved prevailing
wage investigations process, and issued timely prevailing wage determinations;
therefore, the report does not include recommendations to DOL.



                                                          RA: Davis-Bacon Act Enforcement
                                       2                      Report No. 18-11-009-04-420
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General

Before issuing a draft report, the auditors met with WHD personnel to discuss the
results of the audit. Subsequently, the OIG issued a draft report to the Agency for
review and possible comment. After reviewing the draft report, WHD management
informed the OIG through an email that they agreed with the report and did not plan to
comment on the report contents.

RESULTS

Objective 1 — Did WHD provide adequate compliance assistance and outreach to
              ensure Recovery Act contractors and subcontractors complied
              with the DBA?

      Wage and Hour Division outreach efforts were extensive and effective.

The Recovery Act provided additional funding that allowed WHD to significantly expand
its compliance assistance and outreach efforts. WHD provided adequate compliance
assistance and outreach to contractors, subcontractors, and other interested parties
such as labor unions; federal, state, and local agencies; community action agencies,
associations, and employees. WHD conducted conferences, seminars, stakeholder
meetings and various other activities to ensure that all parties involved in
Recovery Act-funded projects were aware of DBA requirements. WHD also issued
guidance, advisory letters and enhanced its website to disseminate information on
Recovery Act requirements.

WHD hosted two prevailing wage conferences in Washington, D.C., and seven in the
WHD regions from July 2009 to November 2010. The conferences were advertised to
provide information to the federal, state, and local contracting communities on DBA
requirements under the Recovery Act, and guidance on complying with the DBA.
According to WHD officials, many of the affected contractors and agencies were not
familiar with these requirements. More than 1,900 persons attended. At the end of each
of the seven regional prevailing wage conferences, WHD officials asked participants to
prepare an evaluation on the effectiveness of the outreach efforts. WHD received 714
evaluation forms. Our review of the evaluations from the seven regional conferences
demonstrated that the conferences were comprehensive, effective, and targeted to the
intended audience.

In addition, WHD held 376 smaller outreach events between July 2009 and September
2010 that included presentations, seminars, speeches, stakeholder meetings, and face-to-
face consultations with individuals and groups concerned about the DBA requirements
under the Recovery Act. More than 15,700 people attended these events. Of the 376
events, 300 were requested by employers, unions or government agencies. The other
events were initiated by WHD.




                                                          RA: Davis-Bacon Act Enforcement
                                       3                      Report No. 18-11-009-04-420
                                                                   Prepared by Foxx & Company
                                   For the U. S. Department of Labor – Office of Inspector General

WHD issued guidance (May 2009 for Recovery Act Division A programs and May 2010 for
Recovery Act Division B programs) 3 to all contract agencies of the Federal government and
the District of Columbia that explained how the DBA applied to all Federally-assisted
construction and weatherization work funded by the Recovery Act. WHD also issued
project-specific advisory letters to the Departments of Energy, Interior, and other
stakeholders. In addition, WHD created a WHD web page that provided comprehensive
assistance materials and up-to-date information on how DBA applied to Recovery
Act-funded projects.

WHD officials said that the Recovery Act-related outreach efforts contributed to making
more people aware of the DBA requirements on contracts not affected by the Recovery
Act. For example, WHD data showed a large increase in the DBA complaint
investigations filed in fiscal year 2010 (1,428), compared to fiscal year 2009 (756) and
fiscal year 2008 (356).

Objective 2 — Did WHD conduct timely prevailing wage complaint and directed
              investigations in accordance with applicable policies and
              regulations?


        WHD used Recovery Act funds to perform Davis-Bacon Act investigations in
        accordance with policies and regulations, and their initiatives have resulted in
        lasting improvements to the investigation program.

WHD used its Recovery Act funds to perform DBA investigations in accordance with
regulations and WHD’s Recovery Act Plan. In doing so, WHD implemented an improved
process for conducting DBA investigations by focusing on WHD directed investigations and
setting a higher priority on complaint investigations in response to allegations of non-
compliance with DBA requirements received by WHD. These initiatives, along with a
cadre of better equipped and trained investigators, resulted in an enhanced
enforcement program. As a result, WHD has increased its capability to conduct DBA
investigations in the future.

Directed Investigations:

WHD initiated an aggressive program to target and investigate Recovery Act funded
projects to assess DBA prevailing wage compliance. As part of a concentrated focus,
WHD targeted projects with a high dollar volume and multiple contractors and
subcontractors on-site. These directed investigations were initiated by WHD based on
its assessment of the risk that contractors working on a construction project may not be
complying with DBA requirements.

3
 Division A of the Recovery Act consists primarily of discretionary spending. Examples of discretionary
projects and activities include federal construction projects and certain research activities. Division B
consists of mainly mandatory spending and revenue provisions, including tax, unemployment, health, and
state fiscal relief.


                                                                   RA: Davis-Bacon Act Enforcement
                                              4                        Report No. 18-11-009-04-420
                                                               Prepared by Foxx & Company
                               For the U. S. Department of Labor – Office of Inspector General


Each of WHD’s five Regional Offices was responsible for completing at least 10 project
investigations. WHD selected 51 project investigations from a broad spectrum of
federal agencies in fiscal year 2010. In this project-based approach, WHD investigated
all contractors and subcontractors performing work on the project. If DBA violations
were detected, investigators were expected to consider opening additional
investigations of that contractor at other job sites.

According to WHD officials, DBA investigations are more complex than other DOL
investigations and are generally performed by investigators with DBA investigation training
and experience. Consequently, WHD restructured its investigation efforts by promoting
and training 33 senior investigators to take on the new role as a Senior Investigative
Advisor (SIA). The SIAs, along with WHD regional and headquarters officials, selected
the DBA projects to be investigated. The SIAs managed the investigations and trained
other experienced investigators to work on the projects.

The directed DBA prevailing wage investigations under the Recovery Act had positive
results. In fiscal year 2010, WHD completed 450 directed investigations and 204 had
violations. These investigations were completed more timely than regular DBA
investigations. The DBA investigations funded by the Recovery Act took an average
109 days to complete, compared to 274 days for DBA investigations not funded by the
Recovery Act.

Complaint Investigations:

WHD also placed a higher priority on DBA prevailing wage rate complaint investigations
under the Recovery Act. In fiscal year 2010, WHD set a goal that district offices initiate
90 percent of the investigations within 30 days of receipt the complaint. WHD data
shows that 67 percent of the complaint cases were assigned to investigators in 30 days.
Although the 90 percent goal was not achieved, WHD officials said the goal was set to
encourage district investigators to focus on Recovery Act complaint investigations. This
tied into the DOL Secretary’s policy to change the nature of referrals by having WHD be
the lead on complaint investigations rather than referring the investigations to the
federal agencies that actually provided funds for the projects.

During fiscal years 2009 and 2010, WHD received 157 complaints citing DBA prevailing
wage violations under the Recovery Act. In fiscal year 2010, WHD completed 45 of the
complaint investigations and 33 had violations. The investigations took an average of
157 days to complete compared to 342 days for DBA investigations not funded
by the Recovery Act.

Investigative Results:

According to WHD officials, WHD’s directed and complaint investigations have led to
more awareness of the DBA requirements and provided financial benefits to workers.
The following are examples provided by WHD officials.


                                                           RA: Davis-Bacon Act Enforcement
                                        5                      Report No. 18-11-009-04-420
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General

   •   WHD investigated two Recovery Act covered contracts that led to truck drivers
       receiving $20,800 in back wages. According to WHD officials, the affected state
       agency where the violations took place is taking steps to ensure that workers
       receive the correct DBA wages on all covered contracts. The truck drivers and
       contractors stated to WHD officials that they were more satisfied because they
       had a better understanding of the DBA requirements.

   •   As a result of an investigation of a Housing Authority project, 66 persons working
       for 12 different contractors received more than $415,000 in back wages.
       Contractors paid the workers less than the required prevailing wage rates,
       misclassified the workers, and did not pay the workers for all of their hours
       worked on the project. Of the 14 firms investigated on this project, 12 contractors
       underpaid their workers.

   •   On a Recovery Act-funded construction project at a waste water treatment plant,
       eight workers of a cement contractor were not paid for a month’s wages. The
       cement contractor issued weekly paychecks to the employees for their work on
       this Recovery Act project; however, many of the checks were returned unpaid.
       Following a WHD investigation, the prime contractor agreed that it was financially
       liable for subcontractor liabilities, and issued a check in the amount of $26,048 to
       the workers for unpaid wages and fringe benefits.

WHD officials said that Recovery Act funding significantly increased the DBA prevailing
wage rates enforcement program. According to WHD officials, current investigation
efforts have been very effective based on the number of cases completed in 2010.
Also, according to WHD officials there are now better trained and experienced
investigators to meet future DBA responsibilities. All the documentation reviewed
confirmed WHD’s assertion.

Objective 3 — Did WHD issue timely and reliable prevailing wage determinations
              in response to the Recovery Act in accordance with applicable
              policies and regulations?

       WHD conducted timely and thorough new prevailing wage determinations
       required by the Recovery Act.

WHD issued timely prevailing wage determinations for workers covered under DOE’s
weatherization program. Prevailing wage determinations already existed for all other
types of work for programs funded by the Recovery Act. Prevailing wage rates were
needed for weatherization workers because contractor employees doing home
weatherization were low-skilled workers and the existing residential wage rates that
applied to skilled workers did not apply to these workers.

WHD also used Recovery Act funds to update old DBA highway surveys in 10 states.
However, these surveys had not been published when our fieldwork was completed. As


                                                          RA: Davis-Bacon Act Enforcement
                                        6                     Report No. 18-11-009-04-420
                                                                     Prepared by Foxx & Company
                                     For the U. S. Department of Labor – Office of Inspector General

a result, we could not express an opinion on the reliability of the rates established based
on the survey results.

Weatherization:

The Department of Energy’s weatherization program received $5 billion as a result of
the Recovery Act; a substantial increase over funding received in prior years. After
passage of the Recovery Act, DOE and DOL held extensive discussions concerning
existing DBA prevailing wage rates for residential work. In June 2009, DOE decided
that separate rates were needed for the low-skilled weatherization workers.
Subsequent to this decision in June 2009, DOL published guidance to weatherization
program grantees and agreed to data collection requirements needed for the prevailing
wage surveys.

The WHD’s weatherization surveys leading to new prevailing wage rates were
conducted from headquarters. Under this Recovery Act-funded effort, WHD initiated
and completed the prevailing wage rate surveys during July and August 2009 and
published the weatherization rates for more than 3,000 counties by September 3, 2009.
While waiting for the new wage surveys to be completed, DOE and DOL asked
agencies to use existing residential rates so that weatherization work would not be
delayed. Some states opted to wait until WHD issued weatherization rates before
spending funds to weatherize homes. 4

WHD started receiving inquires from DOE and community action agencies concerning
the new published weatherization rates in September 2009. Some community action
agencies stated that they had submitted survey data with errors. The Community Action
Agencies stated that they were confused and not familiar with DBA requirements, which
resulted in the agencies providing incorrect data. Based on these discussions and the
extent of possible errors in the reported data, WHD decided to re-verify all the submitted
survey data to ensure the data was accurate and reliable. WHD then published revised
prevailing wage rates for weatherization in December 2009.

We reviewed the quality control procedures and requested some of the underlying
source data for the weatherization rates. We met with the WHD officials responsible for
conducting the surveys and discussed the scope, methodology, and timeliness details
of the surveys. We received a detailed chronology of the survey efforts and reviewed
the information to evaluate the survey efforts. We concluded that the overall survey
effort was timely. The procedures used by WHD to conduct the prevailing wage survey
for the weatherization wage rates were adequate, under the circumstances, considering
the short time it took to complete the surveys and finalize rates. To evaluate the use of
the survey results, we obtained and reviewed survey information from WHD for three
states. We compared the survey information with the rates that were established.


4
 GAO, Recovery Act: Project Selection and Starts Are Influenced by Certain Federal Requirements and Other
Factors, GAO-10-383 (Washington D.C.: February 10, 2010) Page 16


                                                                      RA: Davis-Bacon Act Enforcement
                                                7                         Report No. 18-11-009-04-420
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General

Based on these reviews, we concluded that the rates established for weatherization
were reliable.

Highway Surveys:

Recovery Act funding was also used to update 10 DBA highway surveys, some of which
had not been updated for about 18 years. According to WHD officials, WHD would not
have given these surveys a high priority without Recovery Act funds being available.
The surveys were conducted by WHD headquarters personnel. However, the regions
assisted by contacting individual states to request certified payroll data. Once received,
WHD had to analyze each of the payrolls and calculate prevailing rates for publication.
The large volume of data to be analyzed resulted in the new rates not being published
when our fieldwork was completed. According to WHD officials, the updated prevailing
wage rates for the 10 states will be published by the summer of 2011. As a result, we
did not review the surveys.

Because WHD provided adequate outreach, implemented an improved prevailing wage
investigations process, and issued timely prevailing wage determinations, this report
does not include recommendations to DOL.

We appreciate the cooperation and courtesies that Wage and Hour Division personnel
extended to Foxx & Company during this audit.




Martin W. O’Neill
Partner




                                                          RA: Davis-Bacon Act Enforcement
                                       8                      Report No. 18-11-009-04-420
                                             Prepared by Foxx & Company
             For the U. S. Department of Labor – Office of Inspector General




Appendices




                                         RA: Davis-Bacon Act Enforcement
                      9                      Report No. 18-11-009-04-420
                                    Prepared by Foxx & Company
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                RA: Davis-Bacon Act Enforcement
             10                     Report No. 18-11-009-04-420
                                                                  Prepared by Foxx & Company
                                  For the U. S. Department of Labor – Office of Inspector General

                                                                                       Appendix A
Background


President Obama signed the American Recovery and Reinvestment Act (Recovery Act)
into law on February 17, 2009. The Recovery Act provided $787 billion to preserve and
create jobs, promote the nations’ economic recovery, and to assist those most impacted
by the recession. The Act covers projects funded directly, by or in part, through the
Federal government. These funds were used for construction and renovation projects
such as of federal buildings, and a range of infrastructure projects, such as roads,
bridges, public transit, water systems, and housing.

WHD sets prevailing wage rates for various job categories in a local area based on
periodic surveys it conducts of contractors, unions, advocacy groups, and other
interested parties. The DBA requires that contractors and subcontractors working on
federally funded contracts in excess of $2,000 to pay their laborers and mechanics at
least the prevailing wages, including fringe benefits, for the area in which the work will
be performed.

Prior to the Recovery Act, many federal programs that included construction projects
were already subject to the DBA prevailing wage rates. The new DBA related Recovery
Act (section 1606) extended the requirement for DBA prevailing wage rate coverage to
40 additional federally-assisted construction programs spread across 12 federal
agencies. 5 One of the programs was the DOE weatherization program that received
$5 billion under the Recovery Program. The weatherization program has been in place
since 1976, 6 but at a much lower funding level. Also, the weatherization program had
not been required to comply with DBA requirements previously. Except for the DOE’s
weatherization program, all the other 39 added programs were able to use existing DBA
prevailing wage rates for related job occupations.

The DOL received $80 million for various Recovery Act-related oversight activities.
Funds designated for these purposes can be obligated through September 30, 2010.
The DOL Wage and Hour Division obligated $11.5 million to carry out Recovery Act
work for the Davis-Bacon Act. As of February 25, 2011, WHD data showed that it
expended $10.3 million to conduct activities in three areas: outreach, prevailing wage
enforcement, and prevailing wage determinations.




5
  GAO; Recovery Act: Officials Views Vary on Impacts of Davis-Bacon Act Prevailing Wage Provision,
GAO-10-421, (Washington D.C: February 24, 2010), Page 7
6
  Ibid, Page 10 of GAO report cited in footnote 5.


                                                                 RA: Davis-Bacon Act Enforcement
                                            11                       Report No. 18-11-009-04-420
                                    Prepared by Foxx & Company
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                RA: Davis-Bacon Act Enforcement
             12                     Report No. 18-11-009-04-420
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General

                                                                               Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

Our audit objectives were to determine whether WHD (1) provided adequate
compliance assistance and outreach to ensure Recovery Act contractors and
subcontractors complied with DBA; (2) conducted timely prevailing wage complaint and
directed investigations in accordance with applicable policies and regulations; and (3)
issued timely and reliable prevailing wage determinations in response to the Recovery
Act in accordance with applicable policies and regulations.

Scope and Methodology

We audited the WHD oversight responsibilities for DBA prevailing wages under the
Recovery Act. The scope of the audit included WHD’s outreach efforts, prevailing wage
enforcement, and prevailing wages rates determinations funded by the Recovery Act.
The audit fieldwork started on January 5, 2011, and ended on February 25, 2011. The
message conference with DOL/OIG officials was held on February 28, 2011.

The audit team examined policies and procedures, federal laws and regulations, and
published reports related to DBA requirements and WHD responsibilities. We also
reviewed WHD planning documents and other documentation that helped explain the
extent of and results of oversight efforts. To obtain more detail on the DBA process
and further determine the impact of the Recovery Act on WHD activities, we conducted
interviews with WHD officials in Washington, D.C., and regional and district officials in
Chicago, IL; Dallas, Texas; and Philadelphia, PA. We obtained and reviewed
documentation, as appropriate, from WHD to ensure that information received during
the interviews concerning WHD’s oversight effort was supported and reliable.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Criteria

We used the following criteria to accomplish our audit:

   •   American Recovery and Reinvestment Act of 2009, dated February 17, 2009
   •   WHD Recovery Act Plan
   •   Department of Labor Risk Management Plan
   •   Wage and Hour Division FY 2010 Transitional Performance Plan

                                                          RA: Davis-Bacon Act Enforcement
                                        13                    Report No. 18-11-009-04-420
                                                         Prepared by Foxx & Company
                         For the U. S. Department of Labor – Office of Inspector General

•   Wage and Hour Division FY 2011 Operating Plan
•   Wage Determination Resources Book
•   Wage and Hour Division Field Operations Handbook
•   Office of Management and Budget (OMB) Memorandums:
       o M-09-10: Initial Implementing Guidance for the American Recovery and
         Reinvestment Act of 2009, dated February 18, 2009
       o M-09-15: Updated Implementing Guidance for the American Recovery and
         Reinvestment Act of 2009, dated April 3, 2009
       o M-09-21: Implementing Guidance for the Reports on Use of Funds
         Pursuant to the American Recovery and Reinvestment Act of 2009, dated
         June 22, 2009
•   DOL/WHD May 2009 and May 2010 guidance letter
•   DOL Web Site




                                                     RA: Davis-Bacon Act Enforcement
                                  14                     Report No. 18-11-009-04-420
                                                             Prepared by Foxx & Company
                             For the U. S. Department of Labor – Office of Inspector General

                                                                              Appendix C
Acronyms and Abbreviations

Recovery Act   American Recovery and Reinvestment Act of 2009

DBA            Davis-Bacon Act

DOL            Department of Labor

DOE            Department of Energy

FY             Fiscal Year

GAO            Government Accountability Office

OIG            Office of Inspector General

WHD            Wage and Hour Division




                                                         RA: Davis-Bacon Act Enforcement
                                      15                     Report No. 18-11-009-04-420
                                    Prepared by Foxx & Company
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                RA: Davis-Bacon Act Enforcement
             16                     Report No. 18-11-009-04-420
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
